U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                 PUBLIC
                RELEASE


      ASSISTANT ADMINISTRATOR
             FOR SATELLITE AND
         INFORMATION SERVICES

                NESDIS Y2K Risks Are Low,
               But Improvements Are Needed

        Inspection Report No. OSE-12199 / September 1999




                             Office of Systems Evaluation
September 29, 1999


MEMORANDUM FOR:               Gregory W. Withee
                              Assistant Administrator
                               for Satellite and Information Services


FROM:                         Johnnie E. Frazier

SUBJECT:                      Final Inspection Report, NESDIS Y2K Risks Are Low,
                              But Improvements Are Needed (Report No. OSE-12199)


The Office of Inspector General has completed a review of the National Environmental Satellite,
Data, and Information Service’s (NESDIS) efforts to make its computer systems year 2000
(Y2K) compliant and develop contingencies in the event that systems fail as a result of the
century change. We believe that the likelihood of interruption of NESDIS satellite operations and
satellite data processing due to Y2K failure is low; however, additional steps should be taken to
increase confidence that failures do not occur. During the course of our evaluation and in the
response to our draft report, NESDIS officials agreed to all of the recommendations in this report.

We reviewed NESDIS’s renovation process for selected critical systems and concluded that the
likelihood of Y2K failure is low because NESDIS exercised stringent quality control over system
renovations and conducted thorough end-to-end tests. Also, because NESDIS’s systems use
year data infrequently, they have a low susceptibly to Y2K failures. At the same time, we are
concerned that NESDIS has not completed its system inventory, which raises doubt that all
systems have been evaluated for Y2K compliance. As a result, at least one system that should
have been tested for compliance was not. In response to our draft report, NESDIS has re-
surveyed systems in its critical business areas, updated its inventory, and evaluated the missing
systems for Y2K compliance.

We also found that NESDIS needs to significantly improve and assure the accuracy of its
Business Continuity and Contingency Plans (BCCPs). Although NESDIS has standard
procedures for handling problems with its satellite operations and satellite data processing, the
agency did not augment them with contingencies for Y2K-specific failures. NESDIS did not plan
to test Y2K-specific contingencies and is instituting only limited procedures for reducing risk with
computer operations for the days surrounding the century change (the Day-One plan). In
response to our draft report, NESDIS has updated and corrected its BCCPs and is developing
and testing Y2K contingencies. The agency also has prepared a Day-One plan.
U.S. Department of Commerce                                    Final Inspection Report OSE-12199
Office of Inspector General                                                       September 1999

Although NESDIS has informal procedures for managing the risk of introducing changes to
operational systems, it has not established an official policy for managing changes to systems
that have been confirmed to be Y2K compliant. The Office of Management and Budget (OMB)
directs agencies to establish a policy limiting system changes so that Y2K compliance can be
maintained. In response to our draft report, NESDIS has established formal procedures to limit
system changes so that Y2K compliance can be maintained. Finally, we found several minor
deficiencies in the system renovation process. In response to our draft report, NESDIS has taken
additional renovation steps to increase confidence that all Y2K system problems have been
found.

A copy of your full response is attached to this final report. NESDIS has a dedicated,
knowledgeable staff, and we appreciate their willingness to work with us to assure that any gaps
in their Y2K efforts are remedied.

BACKGROUND

NESDIS operates the National Oceanic and Atmospheric Administration’s polar and
geostationary environmental satellites and the Department of Defense’s (DOD) polar
environmental satellites. NESDIS also collects, processes, disseminates, and archives
environmental data. NESDIS operates NOAA’s Search and Rescue Satellite Aided Tracking
system. NESDIS is a major source of weather data for the National Weather Service (NWS) and
other government, commercial, and international concerns.

The Y2K problem results from computer systems that have been programmed with only the last
two digits of a year rather than all four. This can cause computer systems to fail because many
will not be able to distinguish between the years 1900 and 2000. Although years are infrequently
used in weather data, NESDIS needs to identify and correct all Y2K defects to make sure it can
provide an uninterrupted flow of data to NWS and other customers for weather forecasting and
severe storm tracking.

According to NOAA’s Business Continuity and Contingency Plan, NESDIS has five core
business processes, three of which are critical: Satellite Operations, Satellite Data Processing, and
Search and Rescue Satellite Aided Tracking. In the NESDIS Year 2000 Item Report, the agency
identified approximately 400 application systems, operating systems, and hardware units needing
Y2K consideration. Many of the systems within the three critical business processes were
deemed to be mission critical.

PURPOSE AND SCOPE

The purpose of this review is to reduce the risk of critical system failure and business interruption
due to the year 2000 century change by assessing actions taken by NESDIS and recommending
practical Y2K risk mitigation activities. Our approach was to survey and then select a sample of

                                                  2
U.S. Department of Commerce                                   Final Inspection Report OSE-12199
Office of Inspector General                                                      September 1999

NESDIS’s most critical systems and business processes to review. We assessed the renovation
process for making these systems Y2K compliant and the BCCPs for the critical core business
processes.

We used the NESDIS Year 2000 Item Report and discussions with the agency’s management to
select critical systems to review. Our assessment of system renovation included evaluating the
extent of year usage, the thoroughness of the effort to find Y2K problems, the remediation
methods, and the comprehensiveness of system testing and independent validation. We
reviewed eight systems in Satellite Operations and Satellite Data Processing core business
processes and performed in-depth analyses of four of them (see Appendix I). An assessment of
the renovation process cannot conclusively prove that a system will be exempt from Y2K
failures, but it can provide additional insight into whether the system will function properly and
show whether agencies were diligent in handling Y2K problems.

We assessed NESDIS's BCCP, which consists of a matrix that identifies 30 core business sub-
processes, against General Accounting Office (GAO) guidelines and performed in-depth walk-
throughs of the matrix and contingency plans for Satellite Operations and Satellite Data
Processing. Our BCCP work included evaluating how NESDIS managed the development of the
plan and how thoroughly it analyzed the business impact of Y2K failures. We also evaluated the
efficacy of NESDIS’s contingency and Day-One plans and its plans for testing contingencies.

Our methodology included evaluating documentation and interviewing NESDIS staff and
support contractors. Our criteria were derived from GAO and OMB guidelines for the Y2K
computing crisis, research institutions, and best business practices. To ensure that needed
corrections are made as quickly as possible, we kept NESDIS informed of our observations
throughout our fieldwork. Our work was performed in accordance with the Inspector General
Act of 1978, as amended, and the Quality Standards for Inspections, March 1993, issued by the
President's Council on Integrity and Efficiency.

OBSERVATIONS AND CONCLUSIONS

Although NESDIS’s likelihood of business interruption due to Y2K failure is low, additional
measures should be taken to increase confidence that systems operate properly at the century
change and that contingency plans are in place in case not all Y2K defects are identified or
corrected. Specifically, the agency needs to complete its systems inventory, establish a policy for
controlling changes to Y2K compliant systems, and perform additional renovation steps.
Although NESDIS has standard procedures for handling problems with its satellite operations
and satellite data processing, it also needs to improve its BCCPs, especially adding Y2K-specific
failure scenarios and contingencies. As a result of discussions held during our fieldwork and in
response to our draft report, NESDIS has agreed to all of our recommendations.




                                                3
U.S. Department of Commerce                                   Final Inspection Report OSE-12199
Office of Inspector General                                                      September 1999

I. Rigorous System Quality Control, Thorough Testing, and Infrequent Use of Year Dates
   Mitigate NESDIS’s Y2K Risk

NESDIS’s likelihood of business interruption due to Y2K failure is low because the agency
exercised rigorous quality control over system renovations and conducted thorough end-to-end
tests. Also, because these systems use year data infrequently, they are less susceptible to Y2K
failures.

Recognizing that it can not afford to introduce system errors that can jeopardize the continuous
operation of its satellites and processing of satellite data, NESDIS has developed rigorous
procedures for controlling system changes. Agencies that have sound quality control of systems
changes are more likely to successfully renovate their systems for Y2K compliance. Some of the
quality controls measures used by Satellite Operations and Satellite Data Processing to identify
and correct system problems and move systems into operation are listed below:

       l       A system control board monitors the steps of the change process.

       l       All steps of the change process, from problem identification through testing, are
               documented.

       l       System source code is controlled using check-in and check-out library procedures.

       l       Tests are observed by supervisors and the originator of the change request.

       l       The control board approves the release of the changed system to the engineering
               staff.

       l       Engineers perform additional tests and run the new system in parallel with the
               production system for 10 days before putting the new system into operation.

NESDIS’s experience with these quality control measures increase confidence that Y2K
renovations were properly implemented.

We found that NESDIS end-to-end tests were performed in realistic operational environments,
processed information for many hours, and exercised crucial year 2000 dates. This is in keeping
with, for example, GAO guidance that states end-to-end tests should be run to verify that a set of
interrelated systems, which collectively support a core business process, perform together as
intended in an operational environment. These tests are run with times set ahead to critical dates
in the year 2000 and include the exchange of data with outside organizations. NESDIS systems
were part of two NWS end-to-end tests, as well as, end-to-end tests conducted within NESDIS.
The NOAA geostationary satellite operations and data processing systems provided data for two
24-hour NWS end-to-end tests, one for the century rollover (December 31 to January 1) and the

                                                4
U.S. Department of Commerce                                      Final Inspection Report OSE-12199
Office of Inspector General                                                         September 1999

other for the leap-year day (February 29 to March 1, 2000). In addition, Satellite Operations
conducted one polar and three geostationary satellite end-to-end tests. These tests utilized
satellites in orbit, satellites on the ground, and satellite simulators; ran for many hours; and tested
the reception and dissemination of data as well as sending commands to the satellite simulator.
NESDIS informed us that the tests were successful. Only minor problems were found and they
were corrected. Although we did not evaluate test results, we believe that the thoroughness of
these tests is a good indicator that these systems will operate properly in the year 2000.

NWS and NESDIS have stated that years are not critical to weather data or satellites. Our
inspection confirmed that dates are infrequently used in the business areas we reviewed. For
example, only 10 percent of Satellite Data Processing’s system modules had to be renovated for
Y2K compliance. Weather data is not usually dependent on years because it is short-lived and
constantly updated. If dates are required, they are usually represented as a Julian date, that is, the
number of days elapsed since the beginning of a year. When years are appended to weather data,
they are handled properly because they usually adhere to the World Meteorological Organization
standard formats for representing years. NESDIS also informed us that neither the polar nor
geostationary satellites use year dates. Instead, the polar spacecraft uses a Julian date and
milliseconds, which will be reset to Julian day 1 on January 1, 2000. The geostationary spacecraft
uses a 24-hour clock, which is reset to zero each day. Since neither the systems we reviewed nor
NOAA’s geostationary or polar satellites use year data frequently, we believe that NESDIS has a
low risk of Y2K failures.

At the time of our fieldwork, NESDIS systems had not been independently validated for Y2K
compliance. However, Y2K tests for systems we reviewed were observed and their results
confirmed by independent observers—two contractors that did not participate in system
renovation. Also, critical NESDIS systems are scheduled for independent validation by the
Department’s independent verification and validation contractor in the near future.

II. NESDIS Inventory of Systems Should Be Updated

The NESDIS Year 2000 Item Report lists an inventory of approximately 400 items needing Y2K
consideration. Managers use the inventory to understand the magnitude of the Y2K effort, track
Y2K renovation progress, and ensure all Y2K problems have been resolved. Therefore, the
inventory must be accurate and complete.

However, we found five systems missing from the inventory, including a major ground system
and systems that support the polar and geostationary ground operations. The missing systems
were the entire ground system for DOD’s polar satellites (the Integrated Polar Acquisition and
Control System); three systems within NOAA’s geostationary ground operation (the Telemetry
Acquisition and Command Transmission System; the Operation Ground Equipment Data
Acquisition, Patching Subsystem; and the Radio Frequency equipment); and the system that
handles communications between the Command and Data Acquisition station and the Satellite

                                                   5
U.S. Department of Commerce                                    Final Inspection Report OSE-12199
Office of Inspector General                                                       September 1999

Operations Control Center (the Route-About). NESDIS officials told us that one reason the
systems were missing was because the contractor hired to inventory and confirm the compliance
of all ground systems at the station and control center did not complete its work.

Because the inventory was incomplete, at least one system, the Telemetry Acquisition and
Command Transmission System, was not tested for compliance. Although this system was part
of NESDIS’s geostationary satellite end-to-end test, it was not unit tested, that is, tested in
isolation. After we identified this problem, Satellite Operations unit tested the system because
such testing can reveal errors that are not readily detected in broader end-to-end tests.

Although we did not try to verify the completeness of business areas’ system inventories, we
found systems missing from the inventory in one business area as a by-product of our system
review. Consequently, we are not confident that all systems within NESDIS have been identified
and confirmed to be Y2K compliant. Therefore, we believe that NESDIS should re-survey
systems in all five business areas to ensure that the inventory of systems for Y2K compliance
review is complete. Satellite Operations has agreed to have the contractor that partially
inventoried the ground systems complete the task. NESDIS’s Y2K coordinator agreed to re-
survey the other systems across the agency.

III. Increased Attention Should Be Paid to Business Continuity and Contingency Planning

NESDIS relies on standard procedures and the problem-solving abilities of its staff to maintain
continuous operation of its satellites and processing of satellite data. NESDIS plans to deal with
Y2K problems using these established procedures and consequently did not put additional effort
into developing Y2K contingency plans. However, the Y2K problem is not business as usual; it
has its own unique set of issues. Y2K BCCPs should identify potential business and system
failures, the likelihood and impact of these failures, and contingencies to alleviate or work around
them. We found the following problems with NESDIS’s BCCPs: (1) lack of Y2K failure
scenarios and contingencies, (2) documentation errors, (3) no plans for testing the BCCP, and
(4) only limited risk mitigation activities for the days surrounding the century change (the Day-
One plan). NESDIS has stated that the BCCP is a “living document” and has agreed to update it.
The agency has also agreed to test Y2K contingencies where practical and is preparing a Day-One
plan for the entire agency.

Lack of failure scenarios and contingencies. NESDIS did not augment its standard procedures
for handling problems with its satellites and satellite data processing with Y2K failure scenarios
and contingencies. Y2K-unique failures that may not be considered in normal recovery
procedures include a sustained loss of externally supplied data, multiple simultaneous system
failures, and a failure of both primary systems and back-ups. For example, NESDIS had not
documented the possibility of a sustained failure to receive international weather data to verify
NOAA polar satellite sensor readings, a possible scenario since some foreign countries are
lagging behind in Y2K readiness. (After we identified this problem, NESDIS developed a

                                                 6
U.S. Department of Commerce                                    Final Inspection Report OSE-12199
Office of Inspector General                                                       September 1999

contingency plan for this failure and plans to test it.) In addition, during our interviews, NESDIS
engineers identified a new contingency for circumventing a date-related failure for transmission
of data from the geostationary satellite’s Data Collection System. During the time of our
fieldwork, Satellite Operations began drafting plans for more detailed contingencies than were
presented in the BCCPs. All NESDIS business areas need to develop specific Y2K failure
scenarios and contingencies using their system engineers and operators as a source of
information.

Documentation errors. NESDIS should accurately document BCCPs to ensure completeness
and provide confidence that adequate preparations have been made. We found one major error
in its BCCP—one critical core business sub-process, DOD polar satellite ground operations, was
omitted. NESDIS personnel agreed that DOD satellite operations are an important part of its
mission should be addressed in the BCCP, and that the risk for NOAA satellite operations was
inaccurately stated. We also identified other errors for the two business areas we reviewed
including: lack of references to standard procedures, missing contingency activation criteria, lack
of version control for the BCCP, duplicate business sub-processes, incorrect time when problems
are anticipated to occur (should be December 31 at 7 p.m., not January 1, at midnight), and
outdated risk mitigation strategies.

No plans for BCCP Y2K testing. GAO, OMB, and the President’s Council on Y2K Conversion
recommend that contingency plans be tested to assure that they will work if needed. Specifically,
GAO guidance states that the purpose of testing is to evaluate whether Y2K contingencies
provide the desired level of service to customers and can be implemented within a specified time
period. However, NESDIS did not intend to test its Y2K contingency plans. One example we
found where testing would be of benefit was in resolving the uncertainty of whether a particular
DOD data source could be used as an alternative for polar satellite data if the latter were
unavailable. We found that Satellite Data Processing did not know how long it would take to
implement this contingency because it had not been used in a long time.

Risk mitigation for century change days. NESDIS is instituting only limited procedures for
reducing risk with computer operations for the days surrounding the century change and has not
documented these procedures in a Day-One plan. GAO guidance recommends that a Day-One
plan be developed that describes the risk reduction strategy and procedures that will be used for
the period between Thursday, December 30, 1999, and Monday, January 3, 2000. NESDIS has
stated that personnel will be on-site on December 31 to handle systems problems and that the
agency will report the status of its systems and operation to NOAA starting at 8:00 p.m., Friday,
December 31. These procedures should be documented in a Day-One plan. NESDIS should
also consider instituting additional activities to reduce the risks during the Day-One time period.
For example, the European Meteorological Satellite Organization reported that it “is switching off




                                                 7
U.S. Department of Commerce                                              Final Inspection Report OSE-12199
Office of Inspector General                                                                 September 1999

nonessential equipment during the year-end changeover” so it can focus resources on critical
system.1

IV. An Official Policy for Managing Changes to Y2K Complaint Systems Should Be
    Established

Although NESDIS has procedures for managing the risk of introducing changes to operational
systems, it has not established an official policy for managing changes to systems that have been
confirmed to be Y2K compliant. OMB has directed agencies to establish a policy limiting system
changes so that Y2K compliance can be maintained. Agencies are specifically directed to not
modify systems unless absolutely necessary and to establish a process to consider the effect of
the proposed changes on Y2K compliance.

NESDIS should establish policies similar to its informal procedures that reduce risk of changes.
For example, NESDIS personnel do not change systems on Fridays or between December 15
and 31 because personnel may not be available on weekends or during the winter holidays. The
change policy should establish a moratorium period during which only management-approved
essential changes are allowed. If changes are made, they should be tested to confirm that
systems remain Y2K compliant. The Federal Reserve Board, for example, is establishing a
moratorium period from October 1, 1999, through March 31, 2000. Satellite Operations has
agreed to consider freezing changes as of October and then re-test systems. We were recently
informed by the NESDIS Y2K coordinator that the agency is writing a Y2K change policy.

V. Additional Renovation Measures Could Further Reduce Risk of System Failures

NESDIS’s renovation process for the systems we reviewed was thorough. However, we found
several minor deficiencies. We found that a system owner could not confirm that shared
software routines that reside on Satellite Data Processing’s mainframe computer were Y2K
complaint. System owners should ensure that shared routines are compliant. Although Y2K
compliance for most commercial products was tested, NESDIS did not test software
development tools with times set ahead to critical dates in the year 2000.2 These tools are crucial
for repairing systems that fail in the year 2000.

We also found that NESDIS primarily relied on the quality control checks in the system under
test and visual inspection of test results to confirm that renovated systems operated properly.
However, NESDIS did not compare test results and the output of operational systems when the
systems were run in parallel. Finally, although NESDIS staff performed thorough searches of


        1
            “ Ground Stations Could Face Y2K Problems,” Space News, June 21, 1999, Page 14.
        2
           Software development tools, such as compilers, assemblers, and linkers, are used to translate human-
written programs into a format that can be executed by a computer.

                                                         8
U.S. Department of Commerce                                  Final Inspection Report OSE-12199
Office of Inspector General                                                     September 1999

systems for Y2K defects, they did not share search patterns. Many of the technical staff we
interviewed agreed that additional renovation measures would be beneficial.

CONCLUSION AND RECOMMENDATIONS

We believe the likelihood of interruption of NESDIS’s satellite operations and satellite data
processing due to Y2K failure is low; however, additional steps should be taken to increase
confidence that failures do not occur. Throughout our fieldwork, agency staff have agreed to take
the actions cited in this report. Although our evaluation was limited to the most critical systems
and business processes, our recommendations apply to all NESDIS’s business areas.

We recommend that the Assistant Administrator for Satellite and Information Services direct the
NESDIS staff to take the following actions:

1.     Complete its system inventory:
       a.    Re-survey systems in all business areas, and
       b.    Confirm that any new systems found are Y2K compliant.

2.     Update all of NESDIS’s Business Contingency and Continuity Plans to ensure that:
       a.    Y2K-specific failure scenarios and contingencies are developed,
       b.    Documentation errors are corrected,
       c.    Existing and newly developed contingencies are tested, and
       d.    NESDIS’s Day-One plan is completed.

3.     Establish a NESDIS-wide policy for changes to Y2K compliant systems that includes:
       a.      Effective time frames,
       b.      Procedures for evaluating proposed changes, and
       c.      If changes are needed, the re-testing required to assure Y2K compliance is
               maintained.

4.     Perform the following additional renovation steps for all of NESDIS’s systems:
       a.     Confirm compliance of shared code,
       b.     Test compliance of system development tools,
       c.     Compare test result with operational results, if available, and
       d.     Search systems for Y2K defects if new search patterns are found among the staff.

NESDIS has agreed with all of our recommendations. The agency has taken or plans to take
actions that are responsive to our recommendations.




                                                9
U.S. Department of Commerce                                  Final Inspection Report OSE-12199
Office of Inspector General                                                     September 1999

                                          Appendix I

                                 NESDIS Systems Reviewed

We reviewed eight critical system in two of NESDIS’s most important business processes.
Within Satellite Operations, we reviewed three systems that are part of ground operations for the
two NOAA environmental satellites—Geostationary Operational Environmental Satellite (GOES)
and the Polar-orbiting Operational Environmental Satellite (POES):

       l      OATS— Orbital Attitude and Tracking System           .

       l      GIMTACS—GOES I through M Telemetry and Command System.

       l      PACS— Polar Acquisition and Control System.

We reviewed five systems in Satellite Data Processing that processed four weather data products:

       l      Environmental product system.

       l      Shared processing products system.

       l      GOES winds and imagery product systems.

       l      RTOVS—Replacement Trios Operational Vertical Sounder (for NOAA’s older
              polar satellites).

       l      ATOVS—Advanced Trios Operational Vertical Sounder (for NOAA’s new polar
              satellite NOAA-15).
